Certified Mail: 7020 0640 0000 8718 0980
October 30, 2020
Michael S. Barth
P.O. Box 832
Far Hills, New Jersey 07931
917-628-6145

<\

Supreme Court of The U nited States
Clerk of the Court
1 First Street, NE
Washington, DC 20543
Re: Michael S. Barth v. Bernards Township Planning Board et a I, No. 20-100
Please find for filing 41 copies of a Petition for Rehearing in the above referenced matter, and one copy
8.5x11.
Enclosed is a check in the amount of $200.
Please provide me with one copy of a booklet marked "filed"
By copy of same, the undersigned certifies that 3 booklets are sent this day to Respondent counsel
below via certified mail noted.
Respectfully submitt

Michael S. Barth, Self-Represented Party
P.O. Box 832
Far Hills, New Jersey 07931
917-628-6145
C:
7020 0640 0000 8718 1048
Robert L. Toll, Esq.
Hogan Lovells
875 3rd Avenue
New York, New York 10022

7020 0640 0000 8718 1062
Brent R. Pohlman, Esq.
Methfessel & Werbel
P.O. Box 3012
Edison, New Jersey 08818

RECEIVED
NOV -5 2020

)

